September 5, 2008

SUSAN M. BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT:      Audit Report – Management of Contract Changes – Marriott Hotel
             Services, Inc., Contract Number 479984-90-B-0399
             (Report Number CA-AR-08-010)

This report presents the results of our audit of the management of contract changes for
the contract with Marriott Hotel Services, Inc. (Marriott), Contract Number
479984-90-B-0399 (Project Number 08YG003CA001). Our objective was to determine
whether the U.S. Postal Service incurred unnecessary or inappropriate increased costs
because of changes to the contract with Marriott. Specifically, we reviewed contract
modifications to determine the reasons for changing the contract and determined
whether the changes were necessitated by inadequate contract planning or
inappropriate concessions to contractors. This audit was self-initiated as part of a
series of reviews on the Postal Service’s management of contract changes and
addresses operational risks in the Postal Service’s contracting process. Click here to
go to Appendix A for additional information about this audit.

Conclusion

We did not identify any unnecessary or inappropriate increased costs to the Postal
Service because of changes in the contract with Marriott. Modifications to the contract
were administrative changes, no-cost modifications, or changes in the annual operating
budget. Management of contractor operations and budgets appeared sufficient.
However, the contract did not fully define the operational services and terms purchased
after construction of the facility.

Operational Services and Terms

The contract did not fully define the goods and services to be delivered by Marriott after
facility construction was completed. The Manager, Western Services Category
Management Center (CMC), said he believed statements in the contract were sufficient
to define the goods and services to be delivered.
Management of Contract Changes                                                      CA-AR-08-010
 Marriott Hotel Services, Inc.,
 Contract Number 479984-90-B-0399


We expressed concerns about two contract statements, which he specifically indicated
he believed were sufficient:

        • The contract statement that Marriott was to provide the Postal Service with a
           turnkey operational housing facility for use by Postal Service students and
           employees, and

        • Contract amendments 1 and 2, which defined design and operation of the cafe
           and cafeteria service, vending, oversight of utility and repairs, and profit sharing;
           and the Postal Service’s oversight of budget, processes, and operation.

We do not believe the term “turnkey operation” and the contents of the amendments
were sufficient to thoroughly define the scope of services Marriott was to perform in
operating the facility. For example, the contract does not specify how the hotel and
training center are to be managed and it does not provide detailed requirements
regarding the cafeteria. Because the contract did not contain a statement of work or
other information on facility operation and oversight of contractor performance, we were
unable to determine whether all modifications were within the scope of the original
contract.

The Manager, Western Services CMC, and the contracting officer hold quarterly budget
meetings with the contractor to review the facility’s operation and budget. A customer
survey is also performed, and the results are discussed at these meetings. However,
the information to be provided by the contractor and the contracting officer’s oversight,
instructions, and approvals were not defined in the contract terms. The contract terms
will govern the result of any disputes that may occur in the future. Because the contract
terms are vague regarding facility operations, the Postal Service is at risk for any future
claims Marriott may file. During our audit, management stated that this contract will
expire in 2 years, and a statement of work is being developed for the follow-on contract.

The Postal Service’s Procurement Manual defines a statement of work as a description
of work to be performed, not results to be obtained.1 According to the Postal Service’s
current policy, Supplying Principles and Practices, the statement of work must describe
the work as precisely as possible and in enough detail to allow a best value decision
and effective contract performance.2

We recommend the Vice President, Supply Management, direct the Manager, Western
Services Category Management Center, to:

1. Modify the contract to incorporate documentation of the expected goods and
   services to be provided by Marriott Hotel Services, Inc., and the terms of acceptance
   and payment for those services. This could be achieved by incorporating into the
1
    Postal Service Procurement Manual, Publication 41, issued 1988.
2
    Supplying Principles and Practices, issued May 1, 2006.




                                                          2
Management of Contract Changes                                                CA-AR-08-010
 Marriott Hotel Services, Inc.,
 Contract Number 479984-90-B-0399

   contract the details of the quarterly operational and budget report submission and
   review and the annual budget process.

Management’s Comments

Management agreed with the finding and recommendation and stated that the
administrative efforts performed outside of the confines of the contract, such as holding
quarterly budget review meetings, oversight, instructions, and implementation of
performance surveys, should be included within the contract for clarity and to lessen
further risk. Management agreed to prepare a contract modification within the next 30
days incorporating the details of the quarterly operational reviews, budget report
submission and reviews and the annual budget process, into the subject contract.
Management’s comments, in their entirety, are included in Appendix B.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General considers management’s
comments responsive to the recommendation, and the corrective action should resolve
the issue identified in the finding.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judy Leonhardt, Director,
Supply Management, or me at (703) 248-2100.


   E-Signed by Darrell E. Benjamin, Jr
   VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Daniel M. Carriglio
    Vinay B. Kaul
    Susan Witt
    Katherine S. Banks




                                            3
Management of Contract Changes                                                CA-AR-08-010
 Marriott Hotel Services, Inc.,
 Contract Number 479984-90-B-0399



                       APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

On September 18, 1990, the Postal Service Memphis Facilities Service Center entered
into a 20-year facility service contract with Marriott, to provide a turnkey hotel/motel
operation in Norman, Oklahoma. The intent of the original contract was to construct
and operate a housing and recreation facility on the postal-owned site of the Technical
Training Center (TTC) in Norman, Oklahoma. Under the contract terms, Marriott would
construct a 1,000-room facility to house students attending training courses at the TTC.
The Postal Service proposed to lease the site to the successful bidder for a term of
20 years. The successful bidder would finance, design, build, furnish, and fully equip
the facility, lease it back to the Postal Service, and operate, service, and maintain the
facility for a term of 20 years.

The contract required Marriott to design, construct, furnish, and equip the facility for
Xxxxx xxxxxxx. An additional Xxxx xxxxxxx per year was awarded to Marriott to provide
the operations and management services of the contract. The contract specified that
every 2 years, the Postal Service and Marriott would negotiate and adjust the
management fee percentages and profit sharing for the subsequent 2-year period.

The facility was completed in 1992 and consists of a 400,000 square foot residence
building with 1,000 sleeping rooms, 25 study lounges, a dining area, souvenir shop,
lounge, fitness and recreation center, and health unit.

As of February 25, 2008, there have been 44 modifications to the contract, and the
contract is currently valued at Xxxxxxxxxxxx. The contract expires on September 17,
2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether the Postal Service incurred unnecessary or
inappropriate increased costs because of changes to the contract with Marriott.
Specifically, we reviewed contract modifications to determine the reasons for changing
the contract and determined whether those changes were necessitated by inadequate
contract planning or inappropriate concessions to contractors.

To accomplish our objective, we reviewed the Marriott contract and its 44 modifications
to determine whether the modifications were executed in a timely matter. We reviewed
the modifications to determine whether significant changes were made to the original
requirements for deliverables. We analyzed contract modifications to determine
whether contract changes were appropriately priced and whether market research and
price and cost analyses were performed for non-administrative contract modifications.
Further, we interviewed the Manager, Western Services CMC, the contracting officer,



                                            4
Management of Contract Changes                                                   CA-AR-08-010
 Marriott Hotel Services, Inc.,
 Contract Number 479984-90-B-0399

and contracting officer’s representative regarding the contract modifications and overall
management of the contract. In addition, we reviewed the appropriate Postal Service
policies and procedures used in managing the Marriott contract.

We conducted this performance audit from May through September 2008 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on July 17, 2008, and included
their comments where appropriate. We did not rely on computer-generated data to
support our audit findings.

PRIOR AUDIT COVERAGE

We did not identify any prior audits or reviews related to the objective of this audit.




                                              5
Management of Contract Changes                            CA-AR-08-010
 Marriott Hotel Services, Inc.,
 Contract Number 479984-90-B-0399


                      APPENDIX B: MANAGEMENT’S COMMENTS




                                      6
